In the
SUPREME COURT OF THE UNITED STATES
Certificate of Service
I, Geoffrey M. Young, pro se, hereby certify that all parties required to be
served have been served. I mailed a copy of the petition for certiorari and the
appendix to the following parties on May 6, 2020:
Kelly Stephens, Clerk
Supreme Court of Kentucky
State Capitol, Room 235
700 Capital Avenue
Frankfort, KY 40601
Phone: (502) 564-5444
Rebecca Combs Lyon, Clerk
Kentucky Court of Appeals
360 Democrat Drive, Frankfort, KY 40601
Phone: (502) 573-7920
Daniel Cameron, Attorney General
Kentucky State Capitol
700 Capital Avenue, Suite 118,
Frankfort, KY 40601
Phone: (502) 696-5300
Christie A. Moore, Bailey Roese and Gina M. Young
Counsel for Respondent Andy Beshear
Bingham Greenebaum Doll, LLP
101 South Fifth Street
3500 PNC Tower
Louisville, KY 40202
Phone: (502) 587-3758
Patrick R. Hughes
Counsel for Respondent Amy McGrath
Dressman Benzinger LaVelle, PSC
207 Thomas More Parkway
Crestview Hills, KY 41017-2596
(859) 426-2151

